No. __________
IN THE

Supreme Court of the United States
In re AMERICA’S FRONTLINE DOCTORS, et al.,
Petitioners,

ON PETITION FOR WRIT OF MANDAMUS
TO THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA

PETITION FOR WRIT OF MANDAMUS

GREGORY J. GLASER
California State Bar No. 226706
4399 Buckboard Drive, #423
Copperopolis, CA 95228
Telephone: (925) 642-6651
Facsimile: (209) 729-4557
greg@gregglaser.com
COUNSEL OF RECORD for Petitioners

CERTIFICATE OF SERVICE

Service on Respondents
I certify that a true and correct copy of the Petition for Writ of
Mandamus and Appendix were delivered, pursuant to stipulation of
counsel, by email on August 26, 2021 to the attorneys of record for
Respondents in the district court and 9th Circuit action at the addresses
listed below:
Emily Kuwahara (SBN 252411)
EKuwahara@crowell.com
Uri Niv (SBN 307487)
univ@crowell.com
Crowell & Moring, LLP
515 South Flower St., 40th Floor
Los Angeles, CA 90071-2201
Tel: 213-622-4750
Fax: 213-622-2690
Norman J. Hamill (SBN 154272)
Norman.hamill@ucop.edu
Katharine Essick (SBN 219426)
Katharine.essick@ucop.edu
UNIVERSITY OF CALIFORNIA
Office of General Counsel
1111 Franklin Street, 8th Floor
Oakland, CA 94607-5200
Tel: 510-987-9800
Fax: 510-987-9757

Kristin Madigan (SBN 233436)
kmadigan@crowell.com
Suzanne Rode (SBN 253830)
srode@crowell.com
Crowell & Moring, LLP
3 Embarcadero Center, 26th Floor
San Francisco, CA 94111
Tel: 415-986-2800
Fax: 415-986-2827

Delivery of Copy to Trial Judge
A copy of the Petition for Writ of Mandamus and Appendix
will be delivered to the Honorable Jesus G. Bernal of the United States
District Court for the Central District of California, by personal delivery to
the courtroom clerk of the Judge on August 26, 2021.
Dated: August 26, 2021
GREGORY J. GLASER

GREGORY J. GLASER
Attorney for Petitioners

